No. 19-1039
In the

Supreme Court of the United States
PENNEAST PIPELINE COMPANY, LLC,
Petitioner,
v.
NEW JERSEY ET AL.,
Respondents.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Third Circuit
BRIEF OF THE INDUSTRIAL ENERGY
CONSUMERS OF AMERICA AS AMICUS CURIAE
IN SUPPORT OF PETITIONER
KENNETH VON SCHAUMBURG
Counsel of Record
DANIEL R. SIMON
OMAR BUSTAMI
CLARK HILL PLC
1001 Pennsylvania Ave., NW
Suite 1300 South
Washington, DC 20004
kvonschaumburg@clarkhill.com
(202) 772-0904

i
TABLE OF CONTENTS

TABLE OF CONTENTS ............................................. i
TABLE OF AUTHORITIES...................................... iii
INTEREST OF AMICUS CURIAE ............................1
SUMMARY OF ARGUMENT .....................................4
ARGUMENT ...............................................................5
I.

The Decision Below Would Create Barriers to
Energy Infrastructure Development and to
Natural Gas Supplies Throughout the Nation.
...........................................................................5

II. Pipeline Development Barriers Harm IECA’s
Members and the National Economy .............. 8
A.

Manufacturers Need More Pipeline Capacity
to Access Natural Gas Supplies. ..................8

B.

Manufacturers Do Not Have a Comparable
Alternative to Natural Gas. ....................... 12
1.

Manufacturers have no reliable and
environmentally acceptable alternative to
natural gas ............................................... 12

2.

Electricity does not provide an economic
alternative
to
natural
gas
for
manufacturers .......................................... 14

ii
C.

Without Increased Pipeline Capacity, Some
IECA Companies May Need to Move
Production and/or Investments to Other
Countries With Regulatory Certainty and
Better Access to an Economical Natural Gas
Supply; Regulatory Certainty is Needed to
Encourage Reshoring ................................ 16

CONCLUSION .......................................................... 18

iii
TABLE OF AUTHORITIES
Cases
E. Tenn. Nat. Gas Co. v. Sage,
361 F.3d 808 (4th Cir. 2004) ...................................8
El Paso Nat. Gas Co., L.L.C.,
169 FERC ¶ 61,133, Dkt. No. CP18-332-000 (2019)
..................................................................................9
Integration of Variable Energy Resources,
Order No. 764, 139 FERC ¶ 61,246, Dkt. No.
RM10-11-000 (2012) .............................................. 13
NAACP v. Fed. Power Comm’n,
425 U.S. 662 (1976).............................................. 4, 8
PennEast Pipeline Company, LLC,
Order on Petition for Declaratory Order, 170
FERC ¶ 61,064, Dkt. No. RP20-41-000 (January
30, 2020) ....................................................... 5, 6, 7, 8
Statutes
15 U.S.C. §717f (2018) ......................................... 2, 3, 7

1
INTEREST OF AMICUS CURIAE1
The Industrial Energy Consumers of America
(“IECA”) is a nonpartisan association of leading
manufacturing companies with $1.0 trillion in annual
sales, over 3,700 facilities nationwide, and more than
1.7 million employees.
IECA is an organization created to promote the
interests of manufacturing companies through
advocacy and collaboration for which the availability,
use and cost of energy, power, or feedstock play a
significant role in IECA members’ ability to compete
in domestic and world markets.
IECA’s membership represents a diverse set of
industries on which the national economy depends:
chemicals, plastics, steel, iron ore, aluminum, paper,
food processing, fertilizer, insulation, glass, industrial
gases, pharmaceutical, building products, automotive,
brewing, independent oil refining, and cement.
These industries are one-hundred percent
dependent upon a robust interstate pipeline system to
supply their energy needs. IECA member industries
directly purchase approximately twenty-two percent
of U.S. natural gas production shipped via pipeline.
The products that IECA members produce are used by

No counsel for a party authored this brief in whole or part, nor
did any person or entity, other than amici or their counsel, make
a monetary contribution to the preparation or submission of this
brief. The parties received notice at least 10 days before the
deadline and have given express consent to this brief.
1

2
every sector of the economy and pertain to all aspects
of day-to-day life.
Today, there are clear signs that the natural
gas pipeline infrastructure is near maximum
capacity.
The continued viability of the
manufacturing, power, and home heating sectors and
liquified natural gas exports depends upon the ability
to quickly respond to the dramatic increases in
demand each of these sectors is placing on the pipeline
network.
The United States Court of Appeals for the
Third Circuit’s decision2―that private parties may not
exercise the federal eminent domain power delegated
by §717f(h) of the Natural Gas Act (“NGA”) to secure
rights-of-way over property owned by a state or even
over property in which a state merely holds a
recreational or conservation easement―is wrong and
inhibits or denies the ability of IECA member
companies to produce and contribute to U.S. economic
growth and to create high paying middle-class jobs.
The NGA expressly delegates to a gas company
that obtains the requisite approvals the “right of
eminent domain” to obtain “necessary right[s]-of-way”
to construct, operate, and maintain an interstate
pipeline. 15 U.S.C. §717f(h) (2018).
To exercise eminent domain power, a natural
gas company must obtain a certificate of public
In re PennEast Pipeline Co., LLC, 938 F.3d 96 (3d Cir. 2019).
The Third Circuit’s opinion is reproduced at App.1-31.
2

3
convenience and necessity from the Federal Energy
Regulatory Commission (“FERC”).
Id. §717f(h).
Although the court of appeals acknowledged that
§717f(h) delegates the federal eminent domain power
to such certificate holders, it nevertheless concluded
that §717f(h) cannot be read to “delegate” the federal
government’s (separate) power to “exempt” states
from sovereign immunity under the Eleventh
Amendment, and hence leaves eminent domain power
that cannot be exercised as to state property. App.11,
27.
As explained by the Petitioner, this decision of
the court of appeals “invalidates an act of congress out
of a misguided effort to avoid constitutional concerns
that do not exist.” Brief for Petitioner at 19. Nothing
prevents the federal government from delegating its
eminent domain power to certificate holders that have
satisfied FERC review of their proposal to construct
interstate pipelines.
IECA writes to further explain the exceptional
importance of correcting the court of appeals’ error.
The decision below is profoundly disruptive to, and in
fact would inhibit or deny, the free flow of commerce
on which IECA’s members and the economy are onehundred percent dependent. As the court of appeals
itself stated, its decision “may disrupt how the natural
gas industry” has operated “for the past eighty years.”
App.30.

4
SUMMARY OF ARGUMENT
To say that this case is of immense national
importance is an understatement. The court of
appeals’ decision would disrupt how the natural gas
industry has operated for the past eighty years. The
decision would create barriers for manufacturing
companies that depend on natural gas and gas-fired
electric infrastructure throughout the nation and
would inhibit or deny the supply of energy on which
IECA’s members depend. The decision would
undermine “the principal purpose of . . . [the NGA] to
encourage the orderly development of plentiful
supplies of . . . natural gas at reasonable prices”
NAACP v. Fed. Power Comm’n, 425 U.S. 662, 669-70
(1976).
Contrary to the court of appeals’ claim, there is
no practical work-around to the harm created by its
decision. The court of appeals’ decision would create
barriers to pipeline development that would severely
affect IECA’s members, whose annual sales top one
trillion dollars and who form a major component of the
national economy.

5
ARGUMENT
I.

The Decision Below Would Create Barriers
to Energy Infrastructure Development and
to Natural Gas Supplies Throughout the
Nation.

The court of appeals’ decision would disrupt the
development of energy infrastructure, “allow[ing]
states to nullify the effect of Commission orders
affecting state land—and, apparently, private land in
which the state has an interest—through the simple
expedient of declining to participate in an eminent
domain proceeding brought to effectuate a
Commission certificate.” PennEast Pipeline Co., LLC,
Order on Petition for Declaratory Order, 170 FERC ¶
61,064, Dkt. No. RP20-41-000, ¶58 (January 30, 2020)
(“FERC Order”).
As a result of the court of appeals’ decision,
states would be free to block natural gas
infrastructure projects that cross state lands by
refusing to grant easements for the construction and
operation of the projects on land for which the state
has a possessory interest, regardless of any
Commission finding that a particular project is in the
public interest under the NGA. Id. As FERC
explained:
[T]he court’s interpretation would
permit states to block construction both
on land a state owns (e.g., along or
across all state roads and the bottoms
of navigable water bodies), and on land

6
over which the state asserts some
lesser
property
interests
(e.g.,
conservation easements). If stateowned lands are treated as impassable
barriers for purposes of condemnation,
the circumvention of those barriers, if
possible at all, would require the
condemnation of more private land at
significantly greater cost and with
correspondingly greater environmental
impact. If lands over which a state has
asserted any property interest also
become impassable barriers for
purposes of condemnation, a state
could unilaterally prevent interstate
transportation of an essential energy
commodity through its borders, thus
eviscerating the purpose of NGA
section 7(h).
FERC Order ¶58 n.221. Indeed, New Jersey has
already proposed new legislation for the purpose of
blocking natural gas pipelines. Id. ¶61 n.233. New
Jersey’s actions can and will be replicated in other
states.
Even if pipeline companies find ways to work
around these “impassable barriers,” they may
ultimately be forced to locate their pipelines further
away from the manufacturer end-users the pipelines
are intended to serve, thereby dramatically raising
costs.
Natural gas pipelines are a regulated
monopoly. FERC rate design guarantees a rate
sufficient to recover all of the pipeline company’s

7
approved pipeline costs plus a return on equity. See
“Cost of Service Rate Filings,” Federal Energy
Regulatory
Commission,
https://www.ferc.gov/industries/gas/gen-info/ratefilings.asp. This means all additional work-around
costs of building the pipeline would be passed onto
consumers like IECA’s members, thereby negatively
impacting their costs and competitiveness. Higher
pipeline rates increase both the cost of natural gas
and electricity.
While the court of appeals proposed a “workaround,” whereby FERC would bring the
condemnation action itself, and then somehow
transfer the property or rights-of-way to the
certificate holder, the proposed “work-around” is
entirely impractical. App.31. The Commission has no
statutory authority or mechanism by which to
condemn property and transfer it to certificate
holders. FERC Order ¶58. Congress has not given
the Commission the power to bring eminent domain
proceedings, let alone given it the power to “pay just
compensation” or to “transfer[] the property from the
Commission to the pipeline” once it is condemned. Id.
¶¶52-53.
Instead, under the system Congress designed,
FERC is only tasked with determining whether an
exercise of eminent domain would be appropriate,
while a certificate holder is tasked with implementing
that determination and providing just compensation.
See NGA §§717f(e), 717(h).

8
II.

Pipeline Development Barriers Harm
IECA’s Members and the National
Economy.

IECA’s members depend on “the orderly
development of plentiful supplies of . . . natural gas at
reasonable prices.” See NAACP v. Fed. Power
Comm’n, 425 U.S. at 669-70. If the Court allows the
court of appeals’ decision to stand, the barriers to
pipeline development that the court of appeals’
decision impose (described supra) would significantly
harm IECA’s members by limiting or prohibiting their
much needed access to natural gas supplies.
A.

Manufacturers Need More Pipeline
Capacity to Access Natural Gas Supplies.

The NGA has a “superordinate goal of ensuring
the public has access to reliable, affordable supplies of
natural gas.” FERC Order ¶58. The Supreme Court
has explained that “the principal purpose of . . . [the
NGA is] to encourage the orderly development of
plentiful supplies of . . . natural gas at reasonable
prices.” NAACP v. Fed. Power Comm’n, 425 U.S. at
669-70.
“Congress passed the Natural Gas Act and gave
gas companies condemnation power to insure that
consumers would have access to an adequate supply
of natural gas at reasonable prices.” E. Tenn. Nat.
Gas Co. v. Sage, 361 F.3d 808, 830 (4th Cir. 2004).
FERC, the agency tasked with administering the
NGA, has further explained that “[e]ach of [the]
textual provisions [in NGA section 7] illuminate the

9
ultimate purpose of the NGA: to ensure that the public
has access to natural gas because Congress considered
such access to be in the public interest.” El Paso Nat.
Gas Co., L.L.C., 169 FERC ¶ 61,133, Dkt. No. CP18332-000 ¶24 (2019).
Today, natural gas pipeline capacity is either
inadequate or unavailable for many IECA member
companies to operate existing facilities, to expand or
build new manufacturing production facilities, or to
expand or build new electric self-cogeneration
facilities along much of the East Coast, West Coast,
and South, including New Jersey, New York,
Connecticut, Massachusetts, New Hampshire,
Maryland, California, Virginia, North Carolina, South
Carolina, and Tennessee.
As an example, even though the U.S. had a mild
2019-2020 winter with relatively lower seasonal
demand for natural gas, over this same period, IECA
companies received a record number of operational
flow orders (“OFOs”). An OFO is a communication
from a pipeline company to all capacity holders,
including manufacturing companies, stating that
there is insufficient pipeline capacity to supply the
expected demand. This forces manufacturers to
reduce their output (i.e., reduce their operating rate)
and exposes manufacturers to increased costs and
balancing penalties.
Reducing manufacturer
operating rates reduces profitability and jeopardizes
manufacturers’ abilities to serve customer demands.
If domestic manufacturers’ costs increase, or they
simply cannot supply their customers with needed
products, manufacturers risk losing business to

10
overseas competition, placing their facilities and jobs
at risk.
IECA companies are one-hundred percent
dependent upon pipeline infrastructure for natural
gas supply, and their dependence is only increasing.
Nationwide, industrial demand for natural gas is
expected to increase from 2019 levels of 8.33 trillion
cubic feet per year to 9.37 trillion cubic feet per year
in 2025, a 12.4 percent increase just over this period.
“Annual Energy Outlook 2020,” Energy Information
Administration,
available
at
https://www.eia.gov/outlooks/aeo/data/browser/#/?id=
77-AEO2020&region=00&cases=ref2020&start=2018&end=2050&f=A&linec
hart=ref2020-d112119a.24-77AEO2020&map=&ctype=linechart&chartindexed=0
&sourcekey=0.
Without a steady increase of pipeline capacity,
manufacturers cannot expand existing production
facilities or build new facilities that increase high
paying middle-class jobs, economic growth, and
needed exports. In 2018, the average manufacturing
worker earned $ 87,185 of wages and benefits. “Facts
About Manufacturing,” National Association of
Manufacturers,
available
at
https://www.nam.org/facts-about-manufacturing.
Without increased pipeline access, many individuals
who desire to be employed in the manufacturing
industry would be denied that privilege.
Manufacturers also use natural gas to
cogenerate electricity and steam energy that is in turn

11
used by manufacturing facilities. See generally
“Combined Heat and Power,” Environmental
Protection
Agency,
at
available
at
https://www.epa.gov/sites/production/files/201508/documents/chpguide508.pdf.
Cogeneration of
electricity is more than twice as energy efficient than
electricity generated by an electric utility. Id. at 1.
Cogenerated electricity represents between eleven
and thirteen percent of the manufacturing sectors’
demand for electricity.
See “Electricity use at
manufacturing establishments,” Energy Information
Administration,
https://www.eia.gov/todayinenergy/detail.php?id=354
72.
Because it is highly efficient, cogeneration
produces electricity for manufacturing facilities at
lower costs for these facilities than if they were to buy
their power from the grid. Because it is a source of
distributive energy, cogeneration also increases
electric grid reliability and reduces transmission line
losses, thereby reducing greenhouse gas emissions.
Id.
For these purposes, it is essential to
manufacturers that pipeline companies do not face
unreasonable barriers when they attempt to increase
natural gas pipeline capacity that is deemed by FERC
to be needed in the public interest.

12
B.

Manufacturers
Do
Not
Have
a
Comparable Alternative to Natural Gas.

1.

Manufacturers
have
no
environmentally acceptable
natural gas.

reliable
and
alternative to

Manufacturers use natural gas as an energy
source to operate factories, including as a fuel for
process heating, in combined heat and power systems,
and as a raw material (feedstock). See “Natural Gas
Explained,” Energy Information Administration,
https://www.eia.gov/energyexplained/naturalgas/use-of-natural-gas.php. Coal and fuel oil are not
suitable or reliable alternatives for these purposes.
While manufacturers can readily access natural gas
supplies by tapping into the interstate gas pipeline
grid, coal and a significant amount of fuel oil are
accessible to manufacturers only by rail. Fewer
manufacturing facilities are equipped with direct
access to rail than natural gas pipelines. If a factory
does not have an existing rail siting, supply of coal or
fuel oil may be impossible.
Use of coal or fuel oil to operate the facility or
for electric generation produces more greenhouse gas
emissions, more sulfur oxides (SOx), and more
nitrogen oxides (NOx,), than natural gas fired electric
generation.3 See “How much carbon dioxide is
produced when different fuels are burned ?” Energy
SOx and NOx are classified by the Environmental Protection
Agency as Criteria Air Pollutants. “Criteria Air Pollutants,”
Environmental
Protection
Agency,
available
at
https://www.epa.gov/criteria-air-pollutants.
3

13
Information
Administration,
available
at
https://www.eia.gov/tools/faqs/faq.php?id=73&t=11;
“Power plant emissions of sulfur dioxide and nitrogen
oxides continue to decline in 2012,” Energy
Information
Administration,
available
at
https://www.eia.gov/todayinenergy/detail.php?id=101
51 (stating that sulfur dioxide and nitrogen oxides
declined in part as a result of a shift from coal
generation to gas generation).
Renewable
resources,
while
perhaps
environmentally friendly, are not sufficiently reliable
or economically scalable for the typical manufacturing
facility, in part because the majority of renewable
resources are non-dispatchable Variable Energy
Resources whose ability to be called upon as a
resource when needed is “beyond the control of the
facility owner or operator.” Integration of Variable
Energy Resources, Order No. 764, 139 FERC ¶ 61,246,
Dkt. No. RM10-11-000, at ¶1 n.1 (2012). See also
“Combined wind and solar made up at least 20% of
electric generation in 10 states in 2017,” Energy
Information
Administration,
https://www.eia.gov/todayinenergy/detail.php?id=372
33 (“Unlike most other generating technologies, grid
operators generally do not dispatch wind and solar
generation because these generators produce
electricity only when the associated resources are
available . . . Other generating technologies that use
combustible fuels respond to grid dispatch commands
to increase or decrease generation as needed . . .
hydroelectric facilities with reservoirs have some
control over the dispatch of their electricity, and run
of the river generation is non-dispatchable because it

14
generates electricity as water passes through it.
Hydro facilities can also have seasonal limits on
dispatch based on available water resources.”)
Most
manufacturing
facilities
operate
continuously, twenty-four hours a day, seven days a
week. Natural gas pipelines can provide continuous
reliable supply, while renewable energy cannot.
Increasing generation of renewable energy
relies, in many instances, upon natural gas fired
generation as a back-up resource. Without access to
natural gas pipelines, renewable electricity
generators would be dependent upon using coal or fuel
oil as a backup generation resource which, as
discussed supra, produce more greenhouse gas
emissions and Criteria Area Pollutants than natural
gas-fired generation resources.
2.

Electricity does not provide an economic
alternative to natural gas for manufacturers.

Manufacturers cannot switch from using
natural gas to relying entirely on electricity
purchased from the grid. First, as a source of energy,
the cost of electricity is substantially more expensive
than natural gas on a unit-by-unit basis.
To
illustrate, we will assume that a company’s daily
natural gas use is about 100,000,000,000 British
Thermal Units. This example assumes a natural gas
price of $3.00/Million British Thermal Units (roughly

15
the industrial average over the past two years4) and a
purchased electricity price of $55.00/megawatt-hour
(roughly the industrial average over the past two
years5). The annual cost of natural gas would be
$109,500,000, while the same amount of energy
purchased in the form of electricity would cost
$588,709,000, almost six times as much.
Second, the manufacturing sector cannot easily
or economically convert its equipment to rely on
electric energy instead of energy from natural gas,
because the manufacturing industry has invested
trillions of dollars in equipment assets that can only
use natural gas. Switching to electricity for these
manufacturers is either impossible (based on the
configuration of existing facilities) or severely cost
prohibitive. In many cases, equipment that uses
natural gas is not commercially available to use
electricity.
Third, while manufacturers purchase between
eighty-seven and eighty-nine percent of their
Between 2018 and 2020, the price of natural gas per million
British Thermal Units has hovered between approximately $1.76
and $4.65 cents. See, e.g., “Henry Hub Natural Gas Spot Prices,”
Energy
Information
Administration,
available
at
https://www.eia.gov/dnav/ng/hist/rngwhhdd.htm.
4

Between 2018 and 2020, the price of a megawatt-hour of
electricity across various regions of the country has hovered
around $55 per megawatt-hour, occasionally spiking higher than
$100 per megawatt-hour. “Wholesale electricity prices were
generally lower in 2019, except in Texas,” Energy Information
Administration,
available
at
has
https://www.eia.gov/todayinenergy/detail.php?id=42456.
5

16
electricity from the grid (as opposed to self-generated
electricity), electric generation from the grid has
become increasingly reliant upon natural gas. See
“Electricity use at manufacturing establishments,”
Energy
Information
Administration,
https://www.eia.gov/todayinenergy/detail.php?id=354
72. For example, electricity produced by natural gas
generation at utility-scale facilities increased
approximately forty percent from 2014 to 2019,
totaling about thirty-eight percent of total electric
generation from utility-scale facilities across the
United States. “Net Generation by Energy Source:
Total (All Sectors), 2009-December 2019,” Energy
Information
Administration,
available
at
https://www.eia.gov/electricity/monthly/epm_table_gr
apher.php?t=epmt_1_01.
Therefore, even if manufacturers were able to
meet more of their energy demand through electricity
purchased from the grid, they would still need
increased pipeline capacity to guarantee a stable
supply of natural gas for electricity consumption.
C.

Without Increased Pipeline Capacity,
Some IECA Companies May Need to Move
Production and/or Investments to Other
Countries With Regulatory Certainty and
Better Access to an Economical Natural
Gas Supply; Regulatory Certainty is
Needed to Encourage Reshoring.

IECA companies have tough competition from
foreign companies that often receive subsidies,
including for natural
gas and electricity.

17
Manufacturing companies need confidence that
natural gas supplies will be available to meet their
current and future demand. When a manufacturer
invests capital to expand or build a new facility, it
does so assuming it will operate that facility for at
least fifty years. A company will not invest capital
without absolute assurance that it has reliable and
economical access to natural gas and electricity. The
low cost of shale natural gas provides an economic
incentive for companies to reshore their facilities back
to the U.S. Without pipeline regulatory assurance,
manufacturing will not be able to continue to do so.
According to the Bureau of Labor Statistics, since
December of 2009, manufacturing jobs have increased
twelve percent to 12.86 million workers, representing
1.35 million new manufacturing jobs.
See “All
employees, thousands, manufacturing, seasonally
adjusted,”
Bureau
of
Labor
Statistics,
https://data.bls.gov/timeseries/CES3000000001?amp
%253bdata_tool=XGtable&output_view=data&includ
e_graphs=true.
Abundant resources of natural gas in the
ground mean nothing unless there is pipeline capacity
available to move the natural gas to consumers like
IECA’s members.
Regulatory certainty―that a
pipeline company that receives approval through a
FERC certificate can proceed successfully with its
project―is needed for a pipeline company to invest in
a new project. The serious barriers to pipeline
development imposed by the court of appeals’ decision
diminish the regulatory certainty on which pipeline
companies depend to build new pipelines. Without
regulatory certainty for pipeline companies,

18
manufacturing companies recognize that supply of
natural gas via new pipeline capacity will not be
available for their manufacturing facilities.
Manufacturers will have no alternative but to move
production to other countries where there is access to
reliable and economical natural gas supply. The net
result is forgone economic growth and loss of high
paying middle-class manufacturing jobs.
CONCLUSION
For the foregoing reasons, the petition for a
writ of certiorari should be granted.
Respectfully submitted,
KENNETH VON SCHAUMBURG
Counsel of Record
DANIEL R. SIMON
OMAR BUSTAMI
CLARK HILL PLC
1001 Pennsylvania Ave., NW
Suite 1300 South
Washington, DC 20004
kvonschaumburg@clarkhill.com
(202) 772-0904
Counsel for Amicus Curiae
March 2020

